U.S. Department of Education
   Office of Inspector General



Semiannual
  Report to
  Congress,
    No. 68
   October 1, 2013–
    March 31, 2014
Office of Inspector General
Kathleen S. Tighe
Inspector General

May 2014

This report is in the public domain. Authorization to reproduce it in
whole or in part is granted. While permission to reprint this publication
is not necessary, the citation should be: U.S. Department of Education,
Office of Inspector General, Semiannual Report to Congress, No. 68.




Please Note:
The Inspector General’s Semiannual Report to Congress, No. 68 is available on the
ED OIG Web site at http://www2.ed.gov/about/offices/list/oig/sarpages.html.
                                        Message to Congress

On behalf of the U.S. Department of Education (Department) Office of Inspector General
(OIG), I present this Semiannual Report on the activities and accomplishments of this
office from October 1, 2013, through March 31, 2014. The audits, investigations, and
related work highlighted in the report are products of our continuing commitment to
promoting accountability, efficiency, and effectiveness in our oversight of the
Department’s programs and operations.

Over the last 6 months, we closed 73 investigations involving fraud or corruption related
to the Department’s programs and operations, securing more than $18.7 million in
settlements, fines, restitutions, recoveries, and savings. In addition, as a result of our
investigative work, criminal actions were taken against a number of people, including
school officials who cheated the students they were in positions to serve. We also issued
13 reports that included recommendations to improve program operations. For example,
and as highlighted in this report:

     Our audit found that additional safeguards and stronger oversight were needed to
      help mitigate risks of fraud, abuse, and noncompliance in the distance education
      environment. Our report recommended actions that the Department and Congress
      can take to better protect Federal student aid dollars and the legitimate students
      who rely on them.

     Our review determined that the Department should take action to better ensure
      that student interests are served when schools use servicers to deliver credit
      balances and that the Department and schools need to do a better job at
      monitoring debit card servicers to protect student interests, such as stopping
      servicers from charging fees and ensuring that they protect students’ personally
      identifiable information.

     Our management information report on fraud involving Supplemental Educational
      Services (SES) funds highlighted the increasing number of investigations we have
      conducted involving theft and abuse of these funds by unscrupulous SES tutoring
      providers and made a number of recommendations to mitigate the risks associated
      with SES-related vulnerabilities, including that the Department make regulatory
      changes to improve program monitoring.

     Our audit found that the Department and the five State educational agencies we
      reviewed could improve their systems of internal controls to prevent, detect, and
      take corrective actions if they find indicators of inaccurate, unreliable, or
      incomplete Statewide test results.

     The former president of Galiano Career Academy, a for-profit trade school in
      Florida, was sentenced to 4 years in prison and was ordered to pay more than
      $2.1 million in restitution for student aid fraud. He used a diploma mill owned and
      operated by his wife to fraudulently apply for and receive Federal student aid on
      behalf of ineligible students. This action is a result of our investigation, which was
      initiated based on information provided by Department program review staff.

     Our investigations of nine student aid fraud rings resulted in guilty pleas and prison
      sentences for participants of rings that stole millions of Federal student aid funds.

     Our investigations led to indictments and sentencings for 12 high-ranking school
      officials, including the former superintendent of Mississippi’s Greenville Public
      School District who was sentenced to prison for embezzlement and bribery, two
      officials from Texas’ Beaumont Independent School District who were indicted for
      allegedly embezzling more than $4 million from the district, and two former school
      board members from Louisiana’s St. Landry Parish who were sentenced to prison
      and home confinement for soliciting bribes in exchange for their votes.

     A representative of a software company will join his former boss and a former
      El Paso Independent School District associate superintendent in prison for his role
      in a contracting scheme that bilked millions from the school district. With the help
      of the associate superintendent, the company received lucrative software
      contracts but never provided working software.

     EdChoices, an Oregon-based charter school management firm, its director, and its
      chief financial officer agreed to pay $475,000 to settle allegations of racketeering,
      false claims, breach of contract, negligent misrepresentation, and other misuses of
      State and Federal charter school funds. The executives also agreed to a lifetime
      ban from operating, administering, or consulting with any public charter school for
      compensation in Oregon.

In this report, you will find more information on these efforts, as well as summaries of
other reports issued and investigative actions taken over the last 6 months. I am proud of
the results of this work and the recommendations we made to help the Department
improve the management of its programs and operations and to help ensure the
protection of Department funds. I am also pleased to report that we recently issued our
new Five-Year Strategic Plan, which describes the focus and direction of our operations
through fiscal year 2018, establishes our organizational goals, and outlines the strategies
we will employ to reach those goals and the measures we will use to evaluate our
performance. In developing the plan, we considered the Department’s mission, strategic
plan, and management challenges; major educational program development and
initiatives; and our own statutory responsibilities. It also allows for flexibility so my
office has the ability to assess, anticipate, and respond to new challenges that may arise.
Our Strategic Plan is available on our Web site at www.ed.gov/offices/oig.

I greatly appreciate the interest and support of this Congress, Secretary Duncan, and
Deputy Secretary Shelton in our efforts. I look forward to working with you in meeting
the challenges and opportunities that lay ahead.




Kathleen S. Tighe
Inspector General
      Goal 1: Improve the Department’s ability to
   effectively and efficiently implement its programs
  to promote educational excellence and opportunity
 for all students.                                       1

Goal 2: Strengthen the Department’s efforts to improve
the delivery of student financial assistance.            9

Goal 3: Protect the integrity of the Department’s
programs and operations by detecting and preventing
 vulnerabilities to fraud, waste, and abuse.             19

    Goal 4: Contribute to improvements in Department
       business operations.                              29

             Annexes and Required Tables                 37

                      Acronyms and Abbreviations         53
Goal 1:
Improve the
Department’s ability
to effectively and
efficiently implement
its programs to promote
educational excellence and
opportunity for all.
        Our first strategic goal reflects our mission to promote the efficiency and
        effectiveness of the U.S. Department of Education’s (Department) programs and
        operations. To achieve this goal, we conduct audits, investigations, and other
        activities. In our audit and inspection work, the Office of Inspector General (OIG)
        evaluates program results compared to program objectives, assesses internal
        controls, identifies systemic weaknesses, identifies financial recoveries, and makes
        recommendations to improve the Department’s programs and operations. In our
        investigative work, we focus on serious allegations of fraud and corruption and work
        with prosecutors to hold accountable those who steal, abuse, or misuse education
        funds.



                                             Audits and Reviews
                                      We issued three audits related to this goal over the last 6 months. The first audit
                                      involved the Department’s and State educational agencies’ (SEAs) system of
                                      internal controls over Statewide test results. As required by the Elementary and
                                      Secondary Education Act of 1965, as amended, States must have high-quality,
                                      yearly student academic tests that measure the proficiency of students in math,
                                      reading or language arts, and science and establish a single minimum percentage
                                      of students who are required to meet or exceed the proficient level on these
                                      tests. States use these tests to determine the yearly performance of the SEAs,
                                      each local educational agency (LEA), and each school in the State. The audit
                                      sought to determine whether those controls prevent and require corrective action
                                      if SEAs or LEAs found indicators of inaccurate, unreliable, or incomplete test
                                      results. This audit came about as a result of our concerns with cases and
                                      allegations of cheating on Statewide tests and the need for a better
                                      understanding of SEA controls over test administration and security. The second
                                      audit focused on the Race to the Top Program (RTT), a multibillion dollar
                                      discretionary grant program authorized under the American Recovery and
                                      Reinvestment Act of 2009 (Recovery Act). The audit assessed RTT recipient
                                      timelines and performance measures and goals and evaluated the effectiveness of
                                      the Department’s program oversight to ensure that RTT funds were used as
                                      intended and achieved programmatic goals. The third audit focused on the
                                      Department’s implementation of the Government Performance and Results Act
                                      Modernization Act of 2010 (GPRA Modernization Act). This audit sought to
                                      determine whether the Department had implemented provisions of the GPRA
                                      Modernization Act as required. You will find the results of these audits below.
                                      During this reporting period, we also continued to compile and analyze data for
                                      our Recovery Act “lessons learned” report. The goal of that report is to provide
                                      insights into the key challenges associated with implementing the Recovery Act
                                      and the Department’s and its grantees’ responses to those challenges. We will
                                      report the findings of this effort once the report is completed.




2   Office of Inspector General Semiannual Report
Department’s and SEAs’ Internal Controls Over State
Assessments
Our audit found that the Department and the five SEAs reviewed had systems of
internal control designed to prevent and detect inaccurate, unreliable, or
incomplete Statewide test results; however, these systems did not always require
corrective action if indicators of inaccurate, unreliable, or incomplete test results
were found. Furthermore, our audit found that the Department and the SEAs
could take steps to improve the effectiveness of the systems. Specifically, we
found the following:

     Department: Although the Department monitored Statewide test results
      and test administration procedures by using validation checks on data that
      SEAs submitted and by following up on flagged results, it did not always
      require SEAs to explain data flagged as either incorrect or outside
      anticipated ranges. In addition, the Department suspended its reviews of
      SEAs’ test administration procedures during its onsite monitoring visits in
      2011 because of other programmatic priorities. We recommended that the
      Department improve its monitoring of States’ test results by requiring SEAs
      to explain data flagged as either incorrect or outside an anticipated range,
      that it resume its reviews of test administration procedures during onsite
      monitoring visits, and that it have SEAs’ systems of internal control over
      Statewide test results evaluated during standards and assessment peer
      reviews.

     States: Although all five SEAs monitored schools for possible test
      administration irregularities by conducting onsite monitoring visits at LEAs
      and schools or following up on irregularities that LEAs reported to the SEA,
      four of the five either did not incorporate or incorporated only limited
      forensic analysis in their risk assessment. In addition, although all five
      SEAs imposed sanctions for test administration irregularities to help
      prevent them from happening in the future, there was room for
      improvement. One SEA did not timely resolve potential test administration
      irregularities, and another SEA did not always document the corrective
      actions that it required LEAs to take to address the irregularities or
      whether the LEA implemented the corrective actions. Further, although all
      five SEAs had procedures in place to promote secure test administration
      environments, we identified a number of weaknesses at some of the SEAs.
      The weaknesses included unsecured databases, missing test materials, and
      lapses in building security allowing for potential unauthorized access to
      test materials. We noted that SEAs could improve their systems of internal
      control by (1) incorporating forensic analysis into their risk assessments to
      more effectively identify LEAs and schools with possible test administration
      irregularities, (2) strengthening their monitoring of LEAs’ and schools’
      administration of Statewide tests, (3) improving follow-up and resolution of
      test administration irregularities to prevent them from happening in the
      future, and (4) strengthening test security environments and test
      administration practices put in place by LEAs and schools.




                                            Office of Inspector General Semiannual Report   3
                                      In addition, the Department could help SEAs improve their systems of internal
                                      control by emphasizing, during its reviews of SEAs, the importance of using
                                      forensic analyses to more effectively identify schools with possible test
                                      administration irregularities. The Department agreed with our findings and all
                                      but two of our recommendations.

                                      Department’s Monitoring of Race to the Top Recipient
                                      Performance
                                      Our audit examined the extent to which RTT grantees adhered to timelines
                                      established in their applications and related scopes of work and achieved project
                                      performance measures and goals, and the effectiveness of the Department’s
                                      oversight of RTT grantees to ensure that funds were used as intended and
                                      anticipated recipient performance was achieved in support of overall
                                      programmatic goals. The findings and recommendations of our review follow.

                                             States: All five States reviewed had varying degrees of success in adhering
                                              to timelines and in achieving performance measures and goals. In some
                                              cases, certain activities and deliverables within projects were delayed,
                                              while in other cases, entire projects were delayed. These delays ranged
                                              from months to years, and their overall effect on States’ plans varied. We
                                              also noted that States’ adherence to timelines generally improved in Year 2
                                              of the grant, although some projects continued to experience significant
                                              delays. Regarding performance measures, we found that results varied in
                                              terms of States’ success in achieving annual Year 1 and Year 2 targets for
                                              the student outcome measures we reviewed. However, we noted that in
                                              many cases, the trend from baseline to Year 2 actual data was positive,
                                              regardless of whether or not the performance measure targets were met.
                                              As a result of initial capacity issues and other challenges, many States were
                                              still in the planning phase for several reform areas when implementation
                                              activities were already supposed to be taking place. We noted that it was
                                              too early in the grant period to conclude whether the timeline delays
                                              States experienced would affect the chances of successful outcomes for
                                              grant projects and goals. We also found no specific evidence to suggest
                                              that States with delayed timelines would not complete projects or miss
                                              goals, although Department officials did acknowledge that in a few cases,
                                              the possibility existed that States might not be able to meet all of the
                                              commitments outlined in their applications and scopes of work.

                                             Department: We found the Department established and implemented an
                                              extensive and effective process for monitoring RTT program recipients, and
                                              we recommended that it continue to maintain its robust monitoring efforts
                                              and take appropriate action if States continually fail to meet project
                                              timelines or performance measures and goals. We also noted that the
                                              Department had not yet issued a Comprehensive RTT Annual Report—an
                                              overview of RTT efforts across all grantees, to include trends and statistics
                                              across all States, successes and accomplishments, common challenges, and
                                              lessons learned, as discussed in its RTT Program Review Guide. We
                                              recommended that they do so, as by not issuing this report, the




4   Office of Inspector General Semiannual Report
      Department is missing the opportunity to provide valuable information,
      increase transparency, and offer stakeholders greater insight into the RTT
      program, to include lessons learned from implementation. The
      Department generally concurred with our findings regarding the States, and
      it agreed with our recommendations that it continue to maintain its robust
      monitoring effort. It did not, however, concur with our recommendation
      that it produce a Comprehensive RTT Annual Report.

Department Implementation of the Government
Performance and Results Act Modernization Act
Overall, we found that the Department had generally implemented the GPRA
Modernization Act as required, but it could improve its disclosures related to
congressional input and data verification and validation. Specifically, the
Department did not identify on Performance.gov how congressional views were
incorporated into the establishment of its agency priority goals. Also, although
the Department established processes for ensuring the accuracy and reliability of
data used to measure progress towards its agency priority goals, it had not
accurately or adequately disclosed relevant information in its Annual Performance
Plan or Annual Performance Report as required. As a result, the public may have
less confidence that Congress and the Department are in agreement on the
immediate priorities of the agency and that the data presented in performance
reports is credible, and the public may be unaware of any limitations of the data
that would provide important context for understanding it. To correct the
weaknesses identified, we recommended that the Department develop and
implement formal written internal procedures related to the GPRA process, to
include applicable policy on congressional consultations and that it clearly
describe in all applicable performance reports and plans the Department’s data
verification and validation process for each agency priority goal and include
complete and accurate disclosures related to data limitations and sources in
accordance with GPRA requirements. The Department generally concurred with
our findings and provided information on progress made related to our
recommendations.




           Investigations
During this reporting period, OIG continued to investigate allegations of fraud and
corruption involving Recovery Act funds. Since the enactment of the Recovery
Act, OIG has initiated 218 criminal investigations of various schemes involving
improper uses of Recovery Act funds. To date, our Recovery Act-related
investigations have resulted in more than 265 criminal convictions and more than
$1.1 million in recoveries.

Whistleblower Investigations
During this reporting period, our investigations did not sustain the allegations
made in any of the whistleblower complaints that we received. We discontinued
investigations of eight whistleblower complaints made in Colorado (two
complaints), Florida (three complaints), Georgia, Illinois, and Oklahoma. We


                                           Office of Inspector General Semiannual Report   5
                                       discontinued the investigations after our work determined that the employers did
                                       not reprise against the complainants or that the complaints did not relate to
                                       Recovery Act funds. We did not receive any extensions for whistleblower
                                       investigations during this reporting period.




6   Office of Inspector General Semiannual Report
                                                            Other Activities

Participation on Committees, Work Groups, and Task Forces
   Inspector General Community
            Recovery Accountability and Transparency Board (Recovery Board). Inspector
             General Tighe is the Chair of the Recovery Board.

   Federal and State Law Enforcement-Related Groups
            U.S. Department of Justice’s Financial Fraud Enforcement Task Force. The
             Department and OIG are charter members of this task force, established by
             executive order in November 2009. The OIG also participated in the following
             working group.

                    Recovery Act, Procurement, and Grant Fraud Working Group. The
                     Inspector General cochairs and the OIG participates in this working group
                     focused on improving efforts across the Government to investigate and
                     prosecute significant financial crimes involving Recovery Act funds.

Review of Legislation, Regulations, Directives, and Memoranda
            Strong Start for America’s Children Act of 2013 (HR 3461). OIG provided comments
             on this bill, noting our support for the bill’s strategic approach to coordinating
             Federal, State, and local programs and resources for early childhood services and
             the opportunities to provide more comprehensive and effective services and avoid
             duplication. We suggested that it include a report back measure to help overcome
             potential fiscal or programmatic barriers and that States be required to certify that
             the data submitted in its reports are accurate, reliable, fully disclose any issues
             with the reported data, and any remedies that the State is taking to resolve those
             issues.

            Department Directive on Freedom of Information Act and Privacy Act Requests.
             OIG provided technical comments noting OIG independence.

            Department Grants Bulletin on Achieving Transparency in the Discretionary Grant
             Application and Award Process. OIG suggested that if the Department had not
             done so, that it review the draft of the Office of Management and Budget “Uniform
             Guidance: Cost Principles, Audit, and Administrative Requirements for Federal
             Awards” to make sure that its policy is consistent.

            Department Grant Bulletin on Policy and Guidance for Principal Office Monitoring
             Frameworks for Formula Grant Programs. OIG suggested that the policy and
             guidance include leveraging audits, coordinating oversight resources, and following
             up on findings identified in OIG audits, single audits, and other audits.




                                                                    Office of Inspector General Semiannual Report   7
8   Office of Inspector General Semiannual Report
Goal 2:
Strengthen the
Department’s efforts to
improve the delivery of
student financial assistance.
       This goal addresses an area that has long been a major focus of our audit and
       investigative work—the Federal student financial aid programs. These programs are
       inherently risky because of their complexity, the amount of funds involved, the
       number of program participants, and the characteristics of student populations.
       Our efforts in this area seek not only to protect Federal student aid funds from
       waste, fraud, and abuse, but also to protect the interests of the next generation of
       our nation’s leaders—America’s students.



                                             Audits and Reviews
                                      The Department disburses about $140 billion in student aid annually and manages
                                      an outstanding loan portfolio of $1 trillion. This makes it one of the largest
                                      financial institutions in the country. As such, effective oversight and monitoring
                                      of its programs, operations, and program participants are critical. Within the
                                      Department, the Office of Postsecondary Education (OPE) and Federal Student Aid
                                      (FSA) are responsible for administering and overseeing the student aid programs.
                                      OPE develops Federal postsecondary education policies, oversees the accrediting
                                      agency recognition process, and provides guidance to schools. FSA disburses
                                      student aid, authorizes schools to participate in the student aid programs, works
                                      with other participants to deliver services that help students and families finance
                                      education beyond high school, and enforces compliance with program
                                      requirements. During this reporting period, OIG work identified actions OPE and
                                      FSA should take to better protect the interest of students. Summaries of these
                                      reports follow.

                                      Additional Safeguards Are Needed to Help Mitigate the
                                      Risks That Are Unique to the Distance Education
                                      Environment
                                      Our audit found that additional safeguards and improvements were needed for the
                                      Department’s adaptation of Federal student aid (Title IV) requirements and
                                      guidance to mitigate the unique risks inherent in distance education and for the
                                      Department’s, accrediting agencies’, and State agencies’ oversight of schools to
                                      provide assurance of their compliance with Title IV requirements unique to
                                      distance education. As part of this audit, we interviewed officials and reviewed
                                      records from OPE and FSA, nine accrediting agencies, and two schools from each
                                      of four categories: 4-year public schools, 2-year public schools, private nonprofit
                                      schools, and proprietary schools. For the time period of our review, the eight
                                      schools reviewed disbursed nearly $222 million in Federal student aid to more
                                      than 42,000 distance education students who did not earn any credits during a
                                      payment period.

                                      Although we found that the Department issued regulations and provided guidance
                                      to accrediting agencies and schools to address distance education issues
                                      associated with verification of student identity and attendance to decrease the
                                      likelihood of fraud, the regulations and guidance did not sufficiently mitigate the



10   Office of Inspector General Semiannual Report
risks of fraud, abuse, and noncompliance. We also found that the collective
oversight provided by the Department, accrediting agencies, and States did not
ensure compliance with requirements unique to distance education. Further,
although both OPE and FSA officials acknowledged that high-risk areas existed in
the distance education environment, the Department was not collecting data or
other information that could help it identify additional risks. Based on our
findings, we recommended that the Department do the following.

     Develop regulations to require schools offering distance education to have
      a process in place to verify a student’s identity and educational credentials
      during the enrollment process.

     Amend regulations to require more frequent disbursements of Title IV
      funds, which could coincide with school charges and living expenses, such
      as monthly child/dependent care and Internet expenses.

     Amend regulations to specify that attendance at an academically related
      activity is a student eligibility and disbursement requirement, not just a
      requirement limited to return of Title IV aid calculations, and to more fully
      explain what can be considered “attendance at an academically related
      activity” for a distance education student.

     Collect and analyze data to help it better understand the distance
      education environment, assess risks specific to distance education, and
      formulate policies to address those risks

We also recommended that FSA improve its monitoring of schools’ compliance
with Title IV requirements by having program reviews include testing of samples
of students in distance education. Such improvements would better position FSA
to identify and correct the issues found during our reviews of schools and other
issues unique to the distance education environment. The Department agreed
with these recommendations.

Lastly, we reiterated a recommendation that we have made in previous OIG
reports and in Congressional testimony since 2005: that the Department work
with Congress to amend Title IV to specify that a school’s cost of attendance
budget for a student include only those costs that reflect actual educational
expenses. Doing so would reduce the amount of Title IV funds for unnecessary
expenses, such as funds for room and board that distance education students do
not need. That reduction would both decrease a student’s loan debt and combat
student aid fraud rings that target distance education programs, thereby
protecting the integrity of the Title IV programs. The Department agreed with
this recommendation.

Third-Party Servicer Use of Debit Cards to Deliver Federal
Student Aid Funds
In response to Congressional requests and media reports about whether the terms
and conditions of the debit cards that servicers use to deliver Title IV credit
balances to students were in the best interest of students, we conducted a review
that determined that FSA should take action to better ensure that student
interests are served. Specifically, we found the following.


                                         Office of Inspector General Semiannual Report   11
                                            Schools that outsourced credit balance delivery gave servicers significant
                                             control over the Title IV funds delivery process and relied on them to
                                             comply with Title IV regulations but did not routinely monitor servicers’
                                             Title IV compliance or their handling of student complaints.

                                            Schools did not prevent their servicers from using marketing and other
                                             strategies to persuade students to select their debit card over other
                                             available options.

                                            The schools’ servicers appeared to deliver Title IV funds to students
                                             without charging fees. However, students who chose a servicer’s debit
                                             card option could incur fees after the servicer deposited the funds into the
                                             students’ accounts. In some cases, those fees appeared to be unique or
                                             higher than those of alternative financial service providers.

                                            Schools had financial incentives in their contracts with servicers that
                                             created the potential for conflicts of interest that could influence school
                                             officials’ decisions and actions at the expense of student interests.

                                            Schools that contracted with servicer Higher One Holdings, Inc., had fee-
                                             free ATMs on campus, but one school that contracted with another
                                             servicer, Sallie Mae, Inc., did not.

                                            Schools provided, or servicers collected, student information that was not
                                             needed to deliver credit balances. In addition, schools did not monitor
                                             servicer activities for compliance with Federal requirements for handling
                                             personally identifiable information.

                                      We made a number of suggestions, including that OPE amend regulations to
                                      require schools to monitor whether the debit card servicers they hire are
                                      following all applicable rules and have a process to resolve student complaints.
                                      We also suggested that it develop regulations that require debit card servicers to
                                      provide students with objective and neutral information about their products,
                                      ensure that servicers do not charge transaction or administrative fees to access
                                      Title IV funds, and address the conflicts of interest and financial incentives that
                                      may exist between colleges and the debit card servicers. Further, we suggested
                                      that both FSA and OPE specify what additional actions are required to ensure
                                      schools using third-party servicers for credit balance delivery comply with Federal
                                      privacy protections, and that OPE develop regulations to require schools to ensure
                                      that third-party servicers do not collect information from students that is not
                                      necessary to perform the contracted Title IV function. OPE and FSA generally
                                      concurred with our suggestions.

                                      FSA’s Plans for School Closures by a For-Profit Entity
                                      Over the past 2 years, a number of postsecondary schools operated by for-profit
                                      entities have closed, and other for-profit schools may be at risk of closure due to
                                      decreased enrollment and revenue, challenges from increased oversight, negative
                                      publicity, or business-related decisions. Because of the large size of many for-
                                      profit schools, a significant number of students receiving Title IV funding could be
                                      impacted if a school closes. We conducted an inspection to determine the
                                      adequacy of FSA’s risk assessment and contingency planning for the closure of


12   Office of Inspector General Semiannual Report
          schools or locations by a for-profit entity and its procedures in the event of a
          closure. We determined that FSA had performed risk assessments and developed
          strategies to mitigate identified risks associated with for-profit schools; however,
          it did not fully incorporate into its work processes and implement some of its risk
          mitigation strategy action items. We also found that although FSA had
          contingency plans in place in the event of a school closure, the information
          posted on its Web site was not as comprehensive as it could be and was located in
          multiple places, making relevant information difficult to find. Additionally, we
          noted that FSA had developed procedures that described the steps it would take
          when it was notified or otherwise became aware that a school or school location
          had closed or would close; however, the procedures did not provide clear
          guidance on how student outreach should be performed or provide a process that
          should be followed in the event of a precipitous school closure. Among other
          things, we recommended that FSA ensure that its risk mitigation strategy action
          items are incorporated into work processes and implemented to strengthen
          awareness of and preparation for potential precipitous school closures and that it
          ensure that the information on closed schools is comprehensive and easy for
          students to locate on the FSA Web site. FSA agreed in part with our
          recommendations and described its planned corrective actions.



Investigations of Schools and School Officials
         Identifying and investigating fraud in the Federal student financial assistance
         programs has always been a top OIG priority. The results of our efforts have led
         to prison sentences for unscrupulous school officials and others who stole or
         criminally misused Title IV funds, significant civil fraud actions against entities
         participating in the Title IV programs, and hundreds of millions of dollars returned
         to the Federal Government in fines, restitutions, and civil settlements.

         Cofounders of Carnegie College Indicted in $2.3 Million
         Fraud (Ohio)
         The cofounders and an employee of Carnegie College, a private, not-for-profit
         school, were indicted on charges related to a multimillion dollar Federal student
         aid scam. The three school officials allegedly recruited students who had not
         earned high school diplomas or GED certificates by telling them that they would
         earn a valid high school diploma at the same time that they attended the college
         courses. Instead, the school officials allegedly obtained fake high school diplomas
         for those students, which they used to fraudulently apply for and receive financial
         aid on their behalf. As of result of their alleged actions, Carnegie College
         fraudulently received more than $2.3 million in Federal student aid, which the
         three allegedly used as their own personal slush fund for purchasing jewelry,
         lingerie, cruises, and a vacation to Las Vegas.

         Former President of Galiano Career Academy Sentenced
         (Florida)
         The former president of Galiano Career Academy, a for-profit trade school based
         in Florida, was sentenced to serve 4 years in prison and was ordered to pay more


                                                    Office of Inspector General Semiannual Report   13
                                       than $2.1 million in restitution for theft and fraud. The former president
                                       admitted that he knowingly used a high school diploma mill—owned and operated
                                       by his wife—to fraudulently qualify students for Federal student aid. He also
                                       admitted that he secretly made audio and video recordings of Department
                                       program review staff as they conducted an on-site review at his school and
                                       tampered with student records during the review. From July 2007 through
                                       July 2010, the school received nearly $2 million in Federal student aid for
                                       students who were ineligible to receive it. We conducted this investigation based
                                       on information provided by Department program review staff.

                                       Former Admissions Director and Admissions
                                       Representative of South Vocational Technical Institute
                                       Pled Guilty (Texas)
                                       The former admissions director and a former admissions representative of the
                                       South Vocational Technical Institute, an ATI Enterprises proprietary school, pled
                                       guilty to fraud. The two officials told students to provide false information on
                                       their Free Applications for Federal Student Aid to qualify for student loans and
                                       grants that they were not otherwise eligible to receive. As a result of their
                                       actions, the school fraudulently received more than $486,000 in Federal student
                                       aid.



                                 Investigations of Fraud Rings
                                       Below are summaries of actions taken over the last 6 months against people who
                                       participated in Federal student aid fraud rings. Fraud rings are large, loosely
                                       affiliated groups of criminals who seek to exploit distance education programs in
                                       order to fraudulently obtain Federal student aid. The cases below are just a
                                       sample of actions taken against fraud ring participants during this reporting
                                       period. As of March 31, 2014, OIG has opened 132 fraud ring investigations,
                                       secured more than 478 indictments of fraud ring participants, and recovered over
                                       $20 million.

                                       In addition, we continued with our proactive investigative project to identify
                                       student aid fraud rings. The project uses the E-Fraud Query System risk model, as
                                       well as other investigative and analytical tools and data sources, to identify the
                                       full scope of each fraud ring, determine the total potential fraud, and establish
                                       grounds for initiating criminal investigations. We also began referring suspicious
                                       activity indicative of student aid fraud rings, but not warranting further criminal
                                       investigation, to FSA for evaluation. If FSA determines payments are improper, it
                                       can move to stop disbursements.

                                       Last Four Members of $1.1 Million Fraud Ring Sentenced
                                       (Alabama)
                                       During this reporting period, the last 4 people of a 13-person student aid fraud
                                       ring were sentenced for their roles in the scam. The participants recruited
                                       people to participate in the scam, most of whom did not possess a high school
                                       diploma or GED and thus were ineligible to receive Federal student aid. The



14   Office of Inspector General Semiannual Report
recruits knowingly provided their personally identifiable information to the
ringleaders who enrolled them in distance education programs at various
educational institutions for the purpose of fraudulently applying for financial aid
and converting the funds to their own use. As a result of their criminal actions,
more than $1.1 million in Federal student aid was disbursed to ineligible
recipients. The four fraud ring members received sentences ranging from 3 years
of probation to 2 years in prison and were ordered to pay restitution ranging from
about $10,800 to nearly $398,000.

Actions Taken in Two Fraud Ring Cases (Arizona)
     An Arizona woman was sentenced to 3 years of probation and was ordered
      to pay nearly $265,000 in restitution for her role in a fraud ring that
      targeted Rio Salado College. Along with her coconspirators, the woman
      submitted admission forms and student aid applications that contained
      false information to obtain Federal student aid. The woman falsely posed
      as other students and submitted course work in their names to make it
      appear as though the students were attending the school. Once she
      received the student aid award balance, she cashed the checks and
      sometimes would share the profits with her coconspirators. As a result of
      their criminal efforts, the ring fraudulently obtained more than $270,700 in
      Federal student aid.

     In a separate Arizona-based fraud ring case, a woman pled guilty to
      orchestrating a ring that fraudulently obtained more than $513,000 in
      Federal student aid. Along with other coconspirators, the ringleader
      prepared and submitted false and fraudulent student admission and loan
      applications to Rio Salado College on behalf of people who never intended
      to attend the school and then falsely presented herself as the individual
      straw student participating in online courses. She then took a cut from the
      fraudulently obtained student loans and grants.

Actions Taken Against Leaders, Participants of Four Fraud
Rings (California)
     In our last Semiannual Report, we noted that four people were convicted
      and two of them were sentenced to prison for participating in a fraud ring
      that stole more than $200,000 in Federal student aid. During this reporting
      period, the woman who orchestrated the scam was sentenced to serve
      3 years in prison and was ordered to pay nearly $130,000 in restitution.
      She and her coconspirators recruited straw students to sign up for online
      classes at Axia College and Capella University for the purpose of receiving
      financial aid funds. Some of the straw students agreed to have their
      identities used to commit fraud; others had their personal information used
      without their consent to commit fraud.

     The leader of another fraud ring was sentenced to serve more than 2 years
      in prison and was ordered to pay nearly $20,000 in restitution. Along with
      his coconspirators, the ringleader recruited more than 50 straw students to
      participate in the scam and submitted false admissions and financial aid
      applications on their behalf to American River College, Sacramento City
      College, and Cosumnes River College. Almost all of these students


                                          Office of Inspector General Semiannual Report   15
                                               withdrew from classes shortly after receiving the Federal student aid
                                               refund check, a portion of which they kicked back to the ringleader.

                                            Three members of an Oakland-based fraud ring pled guilty and await
                                             sentencing for stealing more than $1 million in Federal student aid. The
                                             three recruited straw students to participate in the scam and assisted them
                                             in preparing, signing, and transmitting fraudulent admissions and student
                                             aid applications, knowing that many of the straw students were not eligible
                                             to receive student aid because they did not a have a high school diploma or
                                             GED and had no intention of attending classes or using the funds for
                                             educational purposes. After receiving the student aid refund balances, the
                                             three would share the proceeds with one another and sometimes with the
                                             straw students. In pleading guilty, one defendant admitted to
                                             fraudulently receiving more than $114,700 in Federal student aid; a
                                             second, $136,000; and the third, more than $771,200.

                                            The leader of fraud ring pled guilty to using the identities of people, with
                                             and without their consent, to apply for admission and financial aid for
                                             purported on-line attendance at Rio Salado College in Arizona. Information
                                             included in the financial aid applications included false information on the
                                             number of claimed dependents to increase the potential financial aid
                                             award. The woman would take the online classes for the straw students
                                             until the student aid refund checks were disbursed. She would then take
                                             all or a portion of the funds received, sometimes sharing the proceeds with
                                             the straw student or other co-conspirators. As a result of her scheme,
                                             more than $461,000 in Federal student aid was disbursed to the straw
                                             students.

                                      Actions Taken Against Leader, Participants in Two Fraud
                                      Rings That Scammed More Than $1 Million (Michigan)
                                      In 2013, the U.S. Attorney for the Eastern District of Michigan and Inspector
                                      General Tighe issued a joint press release highlighting the indictments of
                                      11 people for their roles in Michigan-based fraud rings that scammed more than
                                      $1 million in Federal student aid. During this reporting period, the leader of one
                                      ring and three members of another ring were sentenced for their criminal actions.
                                      The first ringleader recruited about 40 people to participate in the ring, most of
                                      whom did not have a high school diploma or GED. As a result of her fraudulent
                                      actions, the straw students received more than $665,600 in Federal student aid.
                                      The ringleader was sentenced to serve 1 day in prison and 2 years of supervised
                                      release and was ordered to pay more than $665,600 in restitution. The other ring
                                      operated in the same manner and fraudulently obtained more than $400,000 in
                                      Federal student aid. The three participants received sentences ranging from
                                      60 days to 4 months in prison and were ordered to pay restitution ranging from
                                      $22,500 to $107,900.

                                      Ring Leader and Five Members of Fraud Ring Pled Guilty
                                      (Mississippi)
                                      In our last Semiannual Report, we noted that 8 people were indicted for
                                      participating in a fraud ring that scammed more than $156,000 in Federal student
                                      aid. During this reporting period, the ringleader and 5 coconspirators pled guilty

16   Office of Inspector General Semiannual Report
           for their roles in the scheme. The ringleader recruited people to act as straw
           students at the online Phoenix College and submitted false admissions and
           financial aid applications to the school on behalf of those straw students, knowing
           that they had no intention of attending classes. The ringleader paid a portion of
           the award to the straw students for use of their identities and kept the rest.




Investigations of Other Student Aid Fraud Cases
          The following are summaries of the results of additional OIG investigations into
          allegations of abuse or misuse of Federal student aid by individuals.

          Woman Sentenced for Stealing More Than $632,000 in
          Student Aid (Pennsylvania)
          A woman who scammed more than a half a million dollars in Federal student aid
          was sentenced to serve 15 months in prison and 5 years of supervised release and
          was ordered to pay more than $632,000 in restitution for her criminal actions.
          From 2004 through 2010, the woman obtained student loans using her own identity
          and those of her parents and forged her parents’ signatures on the applications
          and the student aid refund checks.

          Woman Sentenced in $57,200 Fraud Scheme (Arizona)
          A woman was sentenced to serve 5 years of probation and was ordered to pay
          more than $57,200 in restitution for student aid fraud. The woman fraudulently
          applied for admission and student financial aid for her son, her mother in-law, her
          husband, who was incarcerated at the time, as well as another inmate, at several
          colleges in Arizona. None were eligible for student aid because they did not have
          a high school diploma or GED, or they were incarcerated. When they received
          their student aid refund checks, the woman would take a portion of the proceeds.



         Inspector General Testimony
           In a previous Semiannual Report to Congress, we reported that FSA’s system for
           managing defaulted student loans, Debt Management Collection System 2 or
           DMCS2, was unable to accept the transfer of certain defaulted student loans from
           FSA’s Title IV servicers, which resulted in those servicers accumulating more than
           $1.1 billion in defaulted student loans that should have been transferred to the
           Department for management and collection. During this reporting period,
           Inspector General Tighe testified on this work before the House of Representatives
           Committee on Education Subcommittee on Higher Education and Workforce
           Training. The Inspector General provided the Subcommittee with background on
           the DCMS2 system and a timeline of the problems we identified. She summarized
           the findings of a number of reports that the OIG or its financial statement auditors
           had issued since 2012 related to DMCS2, noting our concerns and
           recommendations, and provided the Subcommittee with an update on the
           Department’s progress in addressing those recommendations. Inspector General
           Tighe stated that she remains very concerned with the problems posed by DMCS2
           and the Department’s ineffective oversight and monitoring of DMCS2. She told the

                                                     Office of Inspector General Semiannual Report   17
                                      Subcommittee that the OIG has initiated an evaluation of DMCS2’s functionality to
                                      determine whether FSA accurately assessed the operating status of the DMCS2
                                      functions that it indicated to be fully or partially functioning, including
                                      workaround procedures, and to look more broadly at FSA’s oversight,
                                      management, and monitoring of its data systems. Inspector General Tighe also
                                      noted that she highlighted the problems with the DMCS2 in the FY 2014
                                      Management Challenges Report and added a new management challenge related
                                      to the Department’s information technology system development and
                                      implementation.




                                                                                Other Activities

            Participation on Committees, Work Groups, and Task Forces
                 Department of Education Policy Committees. OIG staff participate in an advisory capacity on
                      these committees, which were established to discuss policy issues related to negotiated
                      rulemaking for student loan regulations and for teacher preparation regulations.

            Review of Legislation, Regulations, Directives, and Memoranda
                 Improving Postsecondary Education Data for Students Act (H.R.1949). OIG provided comments
                      that the bill include a mechanism to ensure that the advisory committee is independent of both
                      Congress and the Department of Education so that the advisory committee's report is accepted by
                      all.

                     Student Loan Borrowers’ Bill of Rights Act of 2013 (H.R.3892). OIG provided comments, noting
                      our concern that the bill could greatly increase the cost of the Federal Student Loan Programs.

                     Supporting Academic Freedom Through Regulatory Relief Act (H.R.2637). OIG provided
                      comments noting our concerns with the bill. A copy of those comments can be found here:
                      http://www2.ed.gov/about/offices/list/oig/misc/georgemillersept092013.pdf.




18   Office of Inspector General Semiannual Report
Goal 3:
Protect the
integrity of the
Department’s
programs and
operations by
detecting and
preventing
vulnerabilities to fraud,
waste, and abuse.
       Our third strategic goal focuses on our commitment to protect the integrity of the
       Department’s programs and operations. Through our audit and inspection work, we
       identify problems and propose solutions to help ensure that programs and
       operations are meeting the requirements established by law and that federally
       funded education services are reaching the intended recipients—America’s
       students. Through our criminal investigations, we help protect public education
       funds for eligible students by identifying those who abuse or misuse Department
       funds and holding them accountable for their unlawful actions.


                                             Audits and Reviews
                                      OIG audits and other reviews provide information on the effectiveness of internal
                                      controls, evaluate the appropriateness of Federal funds usage, and identify
                                      weaknesses and deficiencies in Departmental programs and operations that could
                                      leave programs vulnerable to waste, fraud, and abuse. The results of our work
                                      can assist the Department as well as grantees and program participants in
                                      improving operations, strategic planning, and risk management. During this
                                      reporting period, we issued a special report on fraud vulnerabilities involving
                                      Supplemental Educational Services (SES) program funding. Results of this work
                                      follow.

                                      Fraud Vulnerabilities Involving Supplemental
                                      Educational Services
                                      We issued a management information report to alert the Department to serious
                                      fraud and corruption in Elementary and Secondary Education Act of 1965, as
                                      amended, Title I-funded SES tutoring programs. As noted in the report, OIG has
                                      experienced a significant increase in the number of investigations involving fraud
                                      and corruption among SES providers, increasing from 1 case in 2009 to more than
                                      30 cases in 2013. The cases have involved falsification of billing and attendance
                                      records, corruption by public officials, conflicts of interest related to recruiting
                                      students, conflicts of interest related to public school officials who are employed
                                      by an SES provider in noninstructional positions, and the use of improper financial
                                      incentives to enroll students into the programs. These investigations, combined
                                      with OIG audit work conducted over the last decade, have identified a lack of
                                      oversight and monitoring of SES providers by SEAs that leaves SES programs
                                      vulnerable to waste, fraud, and abuse. We made a number of recommendations
                                      that, if implemented, would mitigate the risk of fraud and corruption in SES or
                                      similar programs involving services provided by third parties who bill on a per-
                                      child basis. These included making regulatory changes to improve program
                                      monitoring, establishing a reporting requirement for Title I fraud, establishing
                                      certifications to deter fraud and conflicts, implementing student verification
                                      procedures, prohibiting improper financial incentives, and extending record
                                      retention requirements to match applicable statutes of limitations for
                                      prosecutions. Some of these recommendations were recommendations and
                                      suggestions made in previous OIG reports that the Department had not yet
                                      implemented. The Department generally concurred with our findings and
                                      recommendations.
20   Office of Inspector General Semiannual Report
Investigations of Schools and School Officials
          OIG investigations include criminal investigations involving bribery,
          embezzlement, and other criminal activity, often involving State and local
          education officials who have abused their positions of trust for personal gain.
          Examples of some of these investigations follow.

          Millcreek Township School District Agreed to $350,000
          Civil Settlement (Pennsylvania)
          The Millcreek Township School District agreed to pay $350,000 to resolve
          allegations that it improperly submitted claims to the Pennsylvania School-Based
          Access Program, a program that provides Federal reimbursement to schools for
          health-related services provided to special needs students. The school district
          allegedly submitted claims for payment that did not satisfy program
          requirements. This includes the absence of recipients on dates billed for services,
          claims for noncompensable services, lack of adequate documentation, and claims
          for unlisted services.

          Former Superintendent of Greenville Public School
          District Sentenced; Contractor Pled Guilty (Mississippi)
          In a previous Semiannual Report, we reported that the former superintendent of
          Greenville Public Schools pled guilty to charges of bribery, kickbacks, and
          embezzlement. While he was superintendent, he conspired with the owner of
          Teach Them To Read, Inc., a company that provided reading services for at-risk
          youth, to award $1.4 million in district contracts in exchange for monetary
          kickbacks, During this reporting period, the former superintendent was sentenced
          and the owner of the company pled guilty for their roles in this scam. The former
          superintendent was sentenced to 76 months in prison and 3 years of supervised
          release, and he was ordered to pay more than $1.2 million in restitution.

          Two Beaumont Independent School District Officials
          Indicted (Texas)
          The Director of Finance and the Comptroller of the Beaumont Independent School
          District were indicted on charges of conspiracy and fraud. Beginning in 2010, the
          two allegedly embezzled more than $4 million from the school’s coffers, money
          that should have gone to the educational development of students.

          Two Former Louisiana State University Officials
          Sentenced (Louisiana)
          The former director and assistant director of the Office of Academic Assistance at
          Louisiana State University at Eunice were sentenced to prison and ordered to pay
          more than $159,100 in restitution for theft of government funds. Between 2008
          and 2012, the two used their positions to steal Federal funds meant for Upward
          Bound and Student Support Services projects. They used the funds for personal
          items, such as clothing, jewelry, and cosmetics. They also allowed and
          encouraged coworkers to make personal purchases with these funds as well.



                                                    Office of Inspector General Semiannual Report   21
                                      Former Santiago Canyon College Director Sentenced
                                      (California)
                                      The former director of special programs at Santiago Canyon College was
                                      sentenced to 27 months in prison and 2 years of supervised release and was
                                      ordered to pay more than $89,000 in restitution for defrauding the College
                                      Assistance Migrant Program. From 2008 through 2011, the former director devised
                                      a scheme to defraud the program of about $90,000 by awarding grant funds to
                                      students who were not eligible to receive them and by converting stipend checks
                                      of College Assistance Migrant Program students for her personal use.

                                      Two St. Landry Parish School Board Members Sentenced
                                      (Louisiana)
                                      Two St. Landry Parrish School Board members were sentenced for taking bribes in
                                      exchange for votes in favor of a candidate for school board superintendent. The
                                      two board members approached the candidate and solicited and accepted $5,000
                                      each in exchange for their favorable votes. The candidate reported this to law
                                      enforcement and cooperated with the investigation. One of the board members
                                      was sentenced to serve 33 months in prison and 3 years of supervised release and
                                      was ordered to pay a $10,000 fine. The other board member was sentenced to
                                      10 months of home confinement and was ordered to pay a $15,000 fine.

                                      Former Puerto Rico Department of Education Payment
                                      Officer Sentenced (Puerto Rico)
                                      In a previous Semiannual Report, we noted that criminal actions had been taken
                                      against the Puerto Rico Department of Education’s former chief procurement
                                      officer, five other employees, and officials from three vendors for their roles in a
                                      procurement scam involving more than $7 million in contract awards. During this
                                      reporting period, a former Puerto Rico Department of Education payment officer
                                      was sentenced to one year of probation and was ordered to forfeit $11,000 for his
                                      role in the scheme. From 2008 through 2010, the vendors conspired to reward the
                                      Puerto Rico Department of Education employees in exchange for their support on
                                      lucrative contracts. Criminal actions have been taken against other scam
                                      participants, including a prison sentence for the former chief procurement
                                      officer.

                                      Former El Monte Union High School District Director Pled
                                      Guilty (California)
                                      The former director of maintenance, operations, and transportation for the El
                                      Monte Union High School District pled guilty to theft of Federal program funds.
                                      Between 2006 and 2010, the former director accepted kickbacks and other
                                      rewards from a school district construction vendor in exchange for contracts and
                                      work for the vendor.




22   Office of Inspector General Semiannual Report
Investigations of Charter Schools
   OIG has conducted a significant amount of investigative work involving charter
   schools. From January 2005 through March 31, 2014, OIG has opened 63 charter
   school investigations. To date, these investigations have resulted in
   40 indictments and 30 convictions of charter school officials. The cases that have
   been fully settled resulted in nearly $10.8 million in restitution, fines, forfeitures,
   and civil settlements.

   Charter School Management Company and Two
   Executives Reached Civil Settlement (Oregon)
   EdChoices, a charter school management firm that operated 18 charter schools,
   its director, and its chief financial officer agreed to pay $475,000 to settle
   allegations of racketeering, false claims, breach of contract, negligent
   misrepresentation, and other misuses of State and Federal charter school funds.
   The two executives also agreed to a 4-year ban on soliciting, managing, or
   administering State public funds for educational purposes and teaching or
   obtaining an educational license in Oregon and to never operate, administer, or
   consult with any public charter school in Oregon ever again. They also agreed to
   dissolve EdChoices.

   Former Chief Executive Officer of Harambee Institute, Inc.,
   and Harambee Institute of Science and Technology
   Charter School Sentenced (Pennsylvania)
   The former chief executive officer of Harambee Institute, Inc. and Harambee
   Institute of Science and Technology Charter School was sentenced to 36 months in
   prison for abusing his leadership position to enrich himself. He improperly
   withdrew $9,000 from a private scholarship fund set up by the school in order to
   purchase a house for himself in Philadelphia. He also improperly withdrew about
   $79,000 from the Institute’s bank accounts for his personal use. He attempted to
   cover up his illegal activities by mischaracterizing a significant portion of the cash
   withdrawals as labor costs and directed employees to lie for him to Federal agents
   and a Federal grand jury. In addition to the prison sentence, the former official
   was ordered to pay $88,000 in restitution and was prohibited from working in an
   administrative capacity at any school or in any capacity at Harambee Institute and
   the Harambee Institute of Science and Technology.

   Former Chief Executive Officer of Planet Abacus Charter
   School Pled Guilty (Pennsylvania)
   The former chief executive officer of the Planet Abacus Charter School pled guilty
   to conspiring with the founder of four charter schools in the Philadelphia area to
   defraud three of those schools of more than $6.5 million. The former official
   created, altered, and falsified contracts, financial records, board meeting
   minutes, board resolutions, and other records to cover up the fraud.




                                              Office of Inspector General Semiannual Report   23
                                      Cofounder and Former Executive Director of Nia
                                      Community Public Charter School Pled Guilty
                                      (Washington, D.C.)
                                      The cofounder and former executive director of Nia Community Public Charter
                                      School pled guilty to charges related to embezzlement of more than $29,000 in
                                      school funds. She also admitted making unauthorized purchases with a
                                      government-issued purchase card while she worked for another employer in
                                      Virginia. From March 2008 through August 2008, the former official signed five
                                      checks on the charter school’s account for her own personal use. After leaving
                                      the charter school, she was hired as an assistant director at the Cody
                                      Development Center in Virginia, where she was provided with a government
                                      purchase card for buying work-related items. In her guilty plea, she admitted that
                                      she used that card to make nearly $12,000 in unauthorized gift card purchases.



                               Investigations of Supplemental
                                Education Service Providers
                                       OIG audit work conducted over the last decade noted a lack of oversight and
                                       monitoring of SES providers by SEAs, which may leave programs vulnerable to
                                       waste, fraud, and abuse. Recent OIG investigative work has proven this point,
                                       uncovering cases involving fraud and corruption perpetrated by SES providers and
                                       school district officials.

                                       Owner of WAISS Network Technologies Pled Guilty (Ohio)
                                       The owner of WAISS Network Technologies, a SES provider in Ohio, pled guilty to
                                       billing two area school districts more than $100,000 for tutoring sessions that
                                       were never provided. He created fraudulent forms using forged tutor, student,
                                       and parent names and other information. He billed Columbus City Schools and
                                       was paid for tutoring 51 students who either never attended tutoring or were
                                       tutored very few times. He used the same method to defraud Southwestern City
                                       Schools out of about $20,000 in the 2010–2011 school year.

                                       Owner of Sham Tutoring Company Indicted (Georgia)
                                       The Fulton County, Georgia Grand Jury indicted the owner of A Love of Learning
                                       Tutoring on charges of forgery and false statements. The owner allegedly
                                       scammed multiple school districts in Georgia out of SES funding. She allegedly
                                       falsified the financial assets and liabilities of her company, making it appear as if
                                       it were thriving when, in fact, it existed only on paper. She provided a false
                                       balance sheet, a false statement of net income, a program summary showing a
                                       false start date for the company, and a forged letter from a fictitious financial
                                       institution representing a nonexistent line of credit.

                                       Another Action Taken in TestQuest Investigation
                                       (New York)
                                       In our last Semiannual Report, we reported that TestQuest agreed to pay
                                       $1.725 million to settle allegations that it engaged in fraudulent conduct involving



24   Office of Inspector General Semiannual Report
           SES funds and that a former TestQuest manager/New York City school teacher
           who carried out the fraud pled guilty, agreed to $2.3 million civil judgment, and
           awaited sentencing. We also reported that an additional TestQuest employee/
           New York City teacher was criminally charged for her role in the scheme. During
           this reporting period, that employee pled guilty, admitting to directing four high
           school students to advise other students who did not receive any after-school
           tutoring to sign daily attendance sheets falsely claiming that they had received
           tutoring. In her plea agreement, she agreed to a civil forfeiture of more than
           $32,200.

           Actions Taken Against Two Academic Advantage Site
           Managers (New York)
           A former site manager for Academic Advantage pled guilty and another was
           arrested on charges related to SES fraud. The former manager admitted to
           submitting false attendance records when no SES tutoring had been provided. As
           part of the plea agreement, the former manager agreed to pay more than $61,800
           in restitution.



Investigations of School Vendors and Contractors
           Our investigations into suspected fraudulent activity by Federal education
           grantees and others have led to the arrest and conviction of school vendors,
           contractors, and other people for theft or misuse of Federal funds.

           Owner of Joyce Thomas Children Services, Once a Former
           District of Columbia Public Schools Employee, Pled Guilty
           (Washington, D.C.)
           The owner of Joyce Thomas Children Services, a private transportation company,
           who was also a former compliance officer for District of Columbia Public Schools,
           pled guilty to charges in a scheme involving more than $460,000 in fraudulent
           payments made to his company.

           While still employed at District of Columbia Public Schools, he directed students
           who were in need of interstate transportation to his company, where he
           improperly earned more than $163,000. After being terminated from his position
           in 2010 as a part of an overall reduction in the workforce, he schemed to obtain
           nonpublic lists of students needing transportation services from his former
           colleagues at District of Columbia Public Schools and later used these lists to
           create false invoices and supporting documentation for payments to his company
           in the names of the students. He created 60 false invoices and supporting
           documentation through this scheme, causing the District of Columbia Office of the
           State Superintendent of Education to pay his company $300,000 for transportation
           services that were never provided.

           Another Former El Paso Independent School District
           Contractor Sentenced (Texas)
           In our last Semiannual Report, we noted that the former owner of Strategic
           Governmental Solutions, Inc., was sentenced to prison and ordered to pay nearly

                                                     Office of Inspector General Semiannual Report   25
                                      $3 million in restitution for scheming to defraud El Paso Independent School
                                      District. During this reporting period, a representative of Strategic Government
                                      Solutions who conspired in the scheme was sentenced to 24 months in prison and
                                      was ordered to pay nearly $2.9 million. The man conspired with the owner of the
                                      company, a former El Paso Independent School District associate superintendent,
                                      and a former El Paso Independent School District trustee to fraudulently obtain a
                                      software contract with the school district worth several million dollars. The
                                      company failed to provide working software and submitted improper claims for
                                      reimbursement. The former associate superintendent was sentenced to prison in
                                      2012 for his role in the scheme.

                                      Former Detroit Public Schools Contract Accountant
                                      Sentenced (Michigan)
                                      A former Detroit Public Schools contract accountant, who was also once a school
                                      board candidate, was sentenced to 70 months in prison and 2 years of supervised
                                      release and was ordered to pay more than $530,000 in restitution for fraud.
                                      Between 2004 and 2008, the woman and her daughter, a Detroit Public Schools
                                      teacher, obtained more than $530,000 from the school district when a sham
                                      company they controlled placed orders for books and educational materials that
                                      were never provided.

                                      Progreso Independent School District Contractor Indicted
                                      (Texas)
                                      In our last Semiannual Report, we noted that the mayor of Progreso, his father,
                                      the director of maintenance and transportation for Progreso Independent School
                                      District, and his brother, Progreso Independent School District school board
                                      president, were indicted on charges that included conspiracy, theft, and bribery.
                                      The three allegedly used their positions to extract bribes and kickbacks from
                                      service providers to the district and the city of Progreso. During this reporting
                                      period, the owner of IDEA Group, LLC, an architectural firm that provided
                                      architectural and project management services to the district and the city of
                                      Progreso, was indicted for paying bribes to those officials in exchange for
                                      construction projects for his firm.

                                      Owner of Bilingual SEIT Pled guilty (New York)
                                      The owner of Bilingual SEIT, Inc., a government-funded provider of special
                                      education servicers and preschool programs to New York City children, pled guilty
                                      for his role in defrauding the Federal, State, and local governments out of millions
                                      of dollars. Between 2005 and 2012, the owner inflated costs incurred by Bilingual
                                      SEIT, deliberately overpaid certain employees in order to receive portions of the
                                      overpayment, and used company funds for his personal benefit. From 2005
                                      through 2012, Bilingual SEIT received about $94 million in Federal, State, and
                                      local funds.




26   Office of Inspector General Semiannual Report
                                                                   Other Activities

Participation on Committees, Work Groups, and Task Forces
   Federal and State Law Enforcement-Related Groups
        U.S. Department of Justice’s Financial Fraud Enforcement Task Force—Consumer Protection
         Working Group. OIG participates in this working group composed of Federal law enforcement
         and regulatory agencies that works to strengthen efforts to address consumer-related fraud.

        U.S. Department of Justice’s Financial Fraud Enforcement Task Force—Grant Fraud Committee.
         OIG participates in this group composed of Federal law enforcement agencies seeking to enforce
         and prevent grant and procurement fraud.

        Northern Virginia Cyber Crime Working Group. OIG participates in this workgroup of Federal,
         State, and local law enforcement agencies conducting cybercrime investigations in northern
         Virginia. The purpose is to share intelligence and collaborate on matters affecting multiple
         agencies.

   Federal and State Audit-Related Groups
        Association of Government Accountants Partnership for Management and Accountability. OIG
         participates in this partnership that works to open lines of communication among Federal, State,
         and local governmental organizations with the goal of improving performance and accountability.

Review of Legislation, Regulations, Directives, and Memoranda
     Department Dear Colleague Letter Regarding Fraud in Title I-Funded Tutoring Programs.          OIG
         provided technical comments.




                                                                           Office of Inspector General Semiannual Report   27
28   Office of Inspector General Semiannual Report
Goal 4:
Contribute to
improvements in
Department business
operations.
       Effective and efficient business operations are critical to ensure the Department
       effectively manages its programs and protects its assets. Our fourth strategic goal
       speaks to that effort. Our reviews of the Department’s information technology
       security and financial management seek to help the Department accomplish its
       objectives by ensuring the reliability, integrity, and security of its data; its
       compliance with applicable policies and regulations; and the effective, efficient,
       and fair use of taxpayer dollars with which it has been entrusted.



                                             Audits and Reviews
                                      OIG audits and reviews completed over the last 6 months that contributed to this
                                      goal have focused on statutory audits and reviews in the following areas.

                                             Information Technology Security. The E-Government Act of 2002
                                              recognized the importance of information security to the economic and
                                              national security interests of the United States. Title III of the E-
                                              Government Act, the Federal Information Security Management Act of 2002
                                              (FISMA), requires each Federal agency to develop, document, and
                                              implement an agency-wide program to provide information security for the
                                              information and information systems that support the operations and assets
                                              of the agency, including those provided or managed by another agency,
                                              contractor, or other source. It also requires inspectors general to perform
                                              independent evaluations of the effectiveness of information security
                                              control techniques and to provide assessments of agency compliance with
                                              FISMA.

                                             Financial Management. One of the purposes of the Chief Financial
                                              Officers Act of 1990 is to improve agency systems of accounting, financial
                                              management, and internal controls to ensure the reporting of reliable
                                              financial information and to deter fraud, waste, and abuse of Government
                                              resources. The Act requires an annual audit of agency financial
                                              statements, which is intended to help improve an agency’s financial
                                              management and controls over financial reporting.

                                      Information Technology Security
                                      FISMA Review
                                      Our FY 2013 FISMA review found that the Department had made progress in
                                      remediating issues identified in previous FISMA reviews. Specifically, it complied
                                      with 4 of the 11 reporting metrics: continuous monitoring, plan of action and
                                      milestones, contractor systems, and security capital planning. However, we
                                      found deficiencies with the remaining seven reporting metrics—configuration
                                      management, identity and access management, incident response and reporting,
                                      risk management, security training, remote access management, and contingency
                                      planning—many of which were repeat or modified findings from OIG reports
                                      issued over the last several years. Without adequate management, operational,



30   Office of Inspector General Semiannual Report
and technical security controls in place, the Department’s systems and
information are vulnerable to attacks that could lead to a loss of confidentiality
and to a loss of integrity resulting from data modification or limited availability of
systems. In addition to reiterating recommendations made in our FY 2012 FISMA
report, we made 23 new recommendations to help the Department establish and
sustain an effective information security program that complies with FISMA,
Office of Management and Budget, and National Institute of Science and
Technology requirements. The Department concurred with most of our
recommendations.

Financial Management
Financial Statements Audits
In our Semiannual Report to Congress No. 66, we noted that although the
Department and FSA received unqualified (clean) opinions on their FY 2012
financial statements, the audit reports noted a material weakness in internal
control surrounding DMCS2. For FY 2013, both the Department and FSA received
unmodified opinions on their financial statements. Although it no longer noted a
material weakness, the FY 2013 audit reports noted a significant deficiency in
internal controls over financial reporting surrounding some loan servicing systems,
including DMCS2, and found persistent deficiencies in controls surrounding
information systems. The report on the Department’s financial statements also
noted that its financial management systems did not substantially comply with
certain systems requirements of the Federal Financial Management Improvement
Act because of the control weaknesses surrounding information systems. A
number of recommendations were made to address the weaknesses identified.
The Department concurred with the findings and recommendations in the reports.

Closing Package Financial Statements
The Department received an unmodified opinion on its FY 2013 closing package
financial statements. No material weaknesses in internal control over financial
reporting were identified, nor were there instances of reportable noncompliance
with selected provisions of laws or regulations. The closing package financial
statements were presented fairly, in all material respects, in accordance with
generally accepted accounting principles.

Department’s Detailed Accounting of FY 2013 Drug Control Funds
and Related Performance
In accordance with the Office of National Drug Control Policy Circular “Accounting
of Drug Control Funding and Performance Summary,” we authenticated the
Department’s accounting of FY 2013 drug control funds and performance
measures for key drug control programs by expressing a conclusion about the
reliability of each assertion made in the Department’s accounting report and
performance report. Based on our review, nothing came to our attention that
caused us to believe that management’s assertions contained in the Department’s
detailed accounting report and performance summary report are not fairly stated
in all material respects.




                                           Office of Inspector General Semiannual Report   31
                                                     Investigations
                                      The following is a summary of two cases involving unauthorized access to and
                                      abuse of financial aid databases.

                                      Former Florida A&M Student Sentenced (Florida)
                                      In our last Semiannual Report, we noted that a former Florida A&M University
                                      student pled guilty to charges involving aggravated identify theft and access
                                      device fraud arising from a scheme to steal Federal student aid from students
                                      attending the university. During this reporting period, the former student was
                                      sentenced to serve 2 years in prison. He and two coconspirators accessed other
                                      students’ financial aid accounts in the school’s computer system. They obtained
                                      user names, passwords, and other student personally identifiable information by
                                      obtaining discarded paperwork from trash bins located near the school’s computer
                                      help desk, gathering information off the Internet, and tricking school employees
                                      and the students themselves into providing information. They used the personally
                                      identifiable information to log into students’ financial aid accounts and change
                                      bank account and routing information so that student aid award checks were
                                      routed to the defendants’ accounts. The two coconspirators pled guilty and were
                                      sentenced for their roles in the scheme in 2013.

                                      Former University of Nebraska Student Pled Guilty
                                      (Nebraska)
                                      A former University of Nebraska-Lincoln student pled guilty to accessing and
                                      causing damage to a protected computer without authorization. The former
                                      student unlawfully accessed a system that administers Federal student aid for the
                                      entire Nebraska State college and university network and exposed the personally
                                      identifiable information and financial aid data of over 650,000 students. As a
                                      result of his unauthorized intrusion into the network system, he impaired the
                                      integrity of the protected computer system and caused damages of more than
                                      $5,000.



                                   Non-Federal Audit Activities
                                      The Inspector General Act of 1978, as amended, requires that inspectors general
                                      take appropriate steps to ensure that any work performed by non-Federal auditors
                                      complies with Government Auditing Standards. To fulfill these requirements, we
                                      perform a number of activities, including conducting quality control reviews of
                                      non-Federal audits, providing technical assistance, and issuing audit guides to
                                      help independent public accountants performing audits of participants in the
                                      Department’s programs.

                                      Quality Control Reviews
                                      Through 2013, Office of Management and Budget Circular A-133 required entities
                                      such as State and local governments, universities, and nonprofit organizations
                                      that spend $500,000 or more in Federal funds in 1 year to obtain an audit,



32   Office of Inspector General Semiannual Report
referred to as a “single audit.” The Office of Management and Budget’s new
“Uniform Administrative Requirements, Cost Principles, and Audit Requirements
for Federal Awards” (known as the “Super Circular”) has since increased the
single audit threshold to $750,000. Additionally, for-profit institutions and their
servicers that participate in the Federal student aid programs and for-profit
lenders and their servicers that participate in specific Federal student aid
programs are required to undergo annual audits performed by independent public
accountants in accordance with audit guides issued by the OIG. These audits
assure the Federal Government that recipients of Federal funds comply with laws,
regulations, and other requirements that are material to Federal awards. To help
assess the quality of the thousands of single audits performed each year, we
conduct quality control reviews of a sample of audits. During this reporting
period, we completed 17 quality control reviews of audits conducted by
15 different IPAs or offices of firms with multiple offices. We concluded that 10
(59 percent) were acceptable or acceptable with minor issues and 7 (41 percent)
were technically deficient.




                                          Office of Inspector General Semiannual Report   33
                                                                                 Other Activities

           Participation on Committees, Work Groups, and Task Forces
           Department
                     Department of Education Senior Assessment Team. OIG participates in an advisory capacity on
                      this team. The team provides oversight of the Department’s assessment of internal controls and
                      related reports and provides input to the Department’s Senior Management Council concerning
                      the overall assessment of the Department’s internal control structure, as required by the Federal
                      Managers’ Financial Integrity Act of 1982 and Office of Management and Budget Circular A-123,
                      “Management’s Responsibility for Internal Control.”

                     Department of Education Investment Review Board and Planning and Investment Review Working
                      Group. OIG participates in an advisory capacity in these groups that review technology
                      investments and the strategic direction of the information technology portfolio.

                     Department Human Capital Policy Working Group. OIG participates in this group that meets
                      monthly to discuss issues, proposals, and plans related to human capital management.

           Inspector General Community
                     Council of the Inspectors General on Integrity and Efficiency (CIGIE). OIG staff play an active
                      role in CIGIE efforts. Inspector General Tighe is Chair of the Information Technology Committee
                      and a member of CIGIE’s Audit Committee, and the Suspension and Debarment Working Group,
                      which is a subcommittee of the Investigations Committee. OIG staff chair the Investigations
                      Subcommittee of the Informational Technology Committee, and are members of CIGIE’s Assistant
                      Inspector General for Investigations Subcommittee, the Cyber Security Working Group, the Grant
                      Reform Working Group, the Inspections and Evaluations Working Group, the Council of Counsels
                      to the Inspectors General, and the New Media Working Group.

                                  Financial Statement Audit Network. OIG staff have a leading role in this
                                   Government-wide working group that identifies and resolves key issues concerning
                                   audits of agency financial statements and provides a forum for coordination with the
                                   Government Accountability Office and the Treasury on the annual audit of the
                                   Government’s financial statements.

                                  CIGIE/Government Accountability Office Annual Financial Statement Audit
                                   Conference. OIG staff work on the Planning Committee for the annual conference
                                   that covers current issues related to financial statement audits and standards.

                                  CIGIE Grant Reform Working Group. OIG staff participate in this IG-community
                                   group.

                                  Cloud Computing Working Group. OIG participated in this IG-community group that
                                   developed cloud computing contract clauses to ensure that OIGs have adequate data
                                   access for the purposes of audits and criminal investigations.




34   Office of Inspector General Semiannual Report
Participation on Committees, Work Groups, and Task Forces (continued)
Federal and State Audit-Related Groups and Entities
        Intergovernmental Audit Forums. OIG staff chair and serve as officers of a number of
         intergovernmental audit forums, which bring together Federal, State, and local government audit
         executives who work to improve audit education and training and exchange information and ideas
         regarding the full range of professional activities undertaken by government audit officials.
         During this reporting period, OIG staff chaired the Midwestern Forum and served as officers of the
         Southeastern Forum, the Southwestern Forum, and the New York/New Jersey Forum.

        Interagency Working Group for Certification and Accreditation. OIG participates in this group
         that exchanges information relating to Federal forensic science programs that share
         intergovernmental responsibilities to support the mission of the National Science and Technology
         Council’s Subcommittee on Forensic Science.

        Interagency Fraud and Risk Data Mining Group. OIG participates in this group that shares best
         practices in data mining and evaluates data mining and risk modeling tools and techniques to
         detect patterns indicating possible fraud and emerging risks.

        AICPA Government Audit Quality Center’s Single Audit Roundtable. OIG staff participate in this
         group, which meets semiannually and consists of Federal, State, and local government auditors
         and accountants who perform single audits. The participants discuss recent or anticipated
         changes in single audit policy, such as the Compliance Supplement to Office of Management and
         Budget Circular A-133, new auditing standards, and issues of audit quality found in recent quality
         control reviews.

Review of Legislation, Regulations, Directives, and Memoranda
     DATA Act (S.944). OIG provided comments, suggesting that S.944 include H.R. 2061’s
         government-wide role for the Recovery Board and its Recovery Operations Center.




                                                                           Office of Inspector General Semiannual Report   35
36   Office of Inspector General Semiannual Report
Annexes and
Required Tables
           Annex A. Contract-Related Audit Products With
                       Significant Findings
                                      Section 845 of the National Defense Authorization Act for Fiscal Year 2008
                                      requires each Inspector General to include information in its Semiannual Reports
                                      to Congress on final contract-related audit reports that contain significant
                                      findings.

                                      No contract-related audit products with significant findings were issued during
                                      this reporting period.




                                Annex B. Peer Review Results
                                      Title IX, Subtitle I, Sec. 989C of the Dodd-Frank Wall Street Reform and
                                      Consumer Protection Act (Public Law No. 111-203) requires the Inspectors
                                      General to disclose the results of their peer reviews in their Semiannual Reports
                                      to Congress.

                                      No peer reviews were completed during this reporting period.




38   Office of Inspector General Semiannual Report
         Required Tables
The following provides acronyms, definitions, and other information relevant to
Tables 1–6.

Acronyms and Abbreviations Used in the Required Tables
ASA            Arkansas State University
FSA            Federal Student Aid
IES            Institute of Education Sciences
IG Act         Inspector General Act of 1978
ISU            Implementation and Support Unit
MOE            Maintenance of Effort
NCES           National Center for Education Statistics
OCFO           Office of the Chief Financial Officer
OCIO           Office of the Chief Information Officer
ODS            Office of the Deputy Secretary
OESE           Office of Elementary and Secondary Education
OGC            Office of the General Counsel
OII            Office of Innovation and Improvement
OPEPD          Office of Planning, Evaluation and Policy Development
OS             Office of the Secretary
OSDFS          Office of Safe and Drug Free Schools
OSEP           Office of Special Education Programs
OSERS          Office of Special Education and Rehabilitative Services
PAG            Post Audit Group
PDL            Program Determination Letter
Recs           Recommendations

Definitions
Alert Memoranda. Alert memoranda are used to communicate to the Department
significant matters that require the attention of the Department when the
identified matters are not related to the objectives of an ongoing assignment or
are otherwise outside the scope of the ongoing assignment. The matter may have
been identified during an audit, attestation, inspection, data analysis, or other
activity.

Attestation Reports. Attestation reports convey the results of attestation
engagements performed within the context of their stated scope and objectives.
Attestation engagements can cover a broad range of financial and nonfinancial
subjects and can be part of a financial audit or a performance audit. Attestation
engagements are conducted in accordance with American Institute of Certified
Public Accountants attestation standards, as well as the related Statements on
Standards for Attestation Engagements.




                                           Office of Inspector General Semiannual Report   39
                                      Inspections. Inspections are analyses, evaluations, reviews, or studies of the
                                      Department’s programs. The purpose of an inspection is to provide Department
                                      decision makers with factual and analytical information, which may include an
                                      assessment of the efficiency and effectiveness of their operations and
                                      vulnerabilities created by their existing policies or procedures. Inspections may
                                      be conducted on any Department program, policy, activity, or operation.
                                      Typically, an inspection results in a written report containing findings and related
                                      recommendations. Inspections are performed in accordance with quality
                                      standards for inspections approved by the Council of Inspectors General for
                                      Integrity and Efficiency.

                                      Management Information Reports. Management information reports are used to
                                      provide the Department with information and suggestions when a process other
                                      than an audit, attestation, or inspection is used to develop the report. For
                                      example, OIG staff may compile information from previous OIG audits and other
                                      activities to identify overarching issues related to a program or operational area
                                      and use a management information report to communicate the issues and
                                      suggested actions to the Department.

                                      Questioned Costs. As defined by the Inspector General Act of 1978 (IG Act), as
                                      amended, questioned costs are identified during an audit, inspection, or
                                      evaluation because of (1) an alleged violation of a law, regulation, contract,
                                      grant, cooperative agreement, or other agreement or document governing the
                                      expenditure of funds; (2) such cost not being supported by adequate
                                      documentation; or (3) the expenditure of funds for the intended purpose being
                                      unnecessary or unreasonable. OIG considers that category (3) of this definition
                                      would include other recommended recoveries of funds, such as recovery of
                                      outstanding funds or revenue earned on Federal funds or interest due the
                                      Department.

                                      Unsupported Costs. As defined by the IG Act, as amended, unsupported costs are
                                      costs that, at the time of the audit, inspection, or evaluation, were not supported
                                      by adequate documentation. These amounts are also included as questioned
                                      costs.

                                      OIG Product Web Site Availability Policy
                                      OIG final issued products are generally considered to be public documents,
                                      accessible on OIG’s Web site unless sensitive in nature or otherwise subject to
                                      Freedom of Information Act exemption. Consistent with the Freedom of
                                      Information Act, and to the extent practical, OIG redacts exempt information
                                      from the product so that nonexempt information contained in the product may be
                                      made available on the OIG Web site.




40   Office of Inspector General Semiannual Report
             Reporting Requirements of the Inspector General Act, as Amended

                                                        Requirement
           Section                                                                                           Table Number
                                                        (Table Title)

5(a)(1) and 5(a)(2)    Significant Problems, Abuses, and Deficiencies                                             N/A

5(a)(3)                Uncompleted Corrective Actions                                                               1
                       Significant Recommendations Described in Previous Semiannual Reports to
                       Congress on Which Corrective Action Has Not Been Completed

5(a)(4)                Matters Referred to Prosecutive Authorities                                                  6
                       Statistical Profile for October 1, 2013, through March 31, 2014

5(a)(5) and 6(b)(2)    Summary of Instances Where Information was Refused or Not Provided                         N/A

5(a)(6)                Listing of Reports                                                                           2
                       Audit, Inspection, Evaluation, and Other Reports and Products on Department
                       Programs and Activities (October 1, 2013, through March 31, 2014)

5(a)(7)                Summary of Significant Audits                                                              N/A

5(a)(8)                Questioned Costs                                                                             3
                       Audit, Inspection, and Evaluation Reports With Questioned or Unsupported
                       Costs

5(a)(9)                Better Use of Funds                                                                          4
                       Audit, Inspection, and Evaluation Reports With Recommendations for Better
                       Use of Funds

5(a)(10)               Unresolved Reports
                       Unresolved Audit, Inspection, and Evaluation Reports Issued Prior to                        5-A
                       October 1, 2013

                       Summaries of Audit, Inspection, and Evaluation Reports Issued During the                    5-B
                       Previous Reporting Period Where Management Decision Has Not Yet Been Made

5(a)(11)               Significant Revised Management Decisions                                                   N/A

5(a)(12)               Significant Management Decisions With Which OIG Disagreed                                  N/A

5(a)(13)               Unmet Intermediate Target Dates Established by the Department Under the                    N/A
                       Federal Financial Management Improvement Act of 1996




                                                                             Office of Inspector General Semiannual Report   41
       Table 1. Significant Recommendations Described in Previous Semiannual
       Reports to Congress on Which Corrective Action Has Not Been Completed
                       (October 1, 2013, through March 31, 2014)
Section 5(a)(3) of the IG Act, as amended, requires identification of significant recommendations described in
previous Semiannual Reports on which management has not completed corrective action.

This table is limited to OIG internal audit reports of Departmental operations because that is the only type of
audit in which the Department tracks each related recommendation through completion of corrective action.


             Report            Report Title                          Date of    Number of     Number of
                                                         Date                                                Projected
Office      Type and        (Prior SAR Number                      Management   Significant   Significant
                                                        Issued                                              Action Date
             Number             and Page)                           Decision    Recs Open     Recs Closed

FSA         Audit         Financial Statement         11/16/12      1/24/13         1             18         9/30/14
            A17M0002      Audits Fiscal Years
                          2012 and 2011, Federal
                          Student Aid (OCFO is
                          also copied on the
                          report) (SAR 66,
                          page 39)




OCFO        Audit         Financial Statement         11/16/12      3/15/13         1             18         9/30/14
            A17M0001      Audits Fiscal Years
                          2012 and 2011 U.S.
                          Department of
                          Education (FSA is also
                          copied on the report)
                          (SAR 66, page 39)

OCIO        Audit         The U.S. Department          11/7/12       1/8/13         4             14         9/30/14
            A11M0003      of Education’s
                          Compliance with the
                          Federal Information
                          Security Management
                          Act of 2002 for Fiscal
                          Year 2012 (FSA is also
                          designated as an action
                          official) (SAR 66,
                          page 39)

OCIO        Audit         The U.S. Department         10/18/2011    1/3/2012        5             13        3/31/2015
            A11L0003      of Education’s
                          Compliance with the
                          Federal Information
                          Security Management
                          Act for Fiscal Year 2011
                          (FSA is also designated
                          as an action official)
                          (SAR 64, page 36)




42    Office of Inspector General Semiannual Report
       Table 2. Audit, Inspection, Evaluation, and Other Reports and Products on
     Department Programs and Activities (October 1, 2013, through March 31, 2014)

Section 5(a)(6) of the IG Act, as amended, requires a listing of each report completed by OIG during the
reporting period.


                                                                                    Questioned
                Report Type                                              Date     Costs (Includes     Unsupported         Number of
     Office                                Report Title
                and Number                                              Issued     Unsupported           Costs              Recs
                                                                                      Costs)

FSA             Audit            Fiscal Year 2013 Financial            12/11/13          -                   -                10
                A17N0002         Statements Federal Student
                                 Aid (OCFO is copied on the
                                 report)

FSA             Inspection       Review of Federal Student             2/28/14           -                   -                 3
                I13N0001         Aid’s Plans for School Closures
                                 by a For-Profit Entity

FSA             Management       Third-Party Servicer Use of           3/10/14           -                   -                111
                Information      Debit Cards to Deliver Title IV
                Report           Funds (OPE is also designated
                X09N0003         as an action official)

OCFO            Audit            Fiscal Year 2013 Financial            12/11/13          -                   -                10
                A17N0001         Statements U.S. Department of
                                 Education (FSA is copied on
                                 the report)

OCFO            Audit            Fiscal Year 2013 Closing              12/16/13          -                   -                 -
                A17N0003         Package Financial Statements,
                                 U.S. Department of Education

OCIO            Audit            The U.S. Department of                11/13/13          -                   -                21
                A11N0001         Education’s Compliance with
                                 the Federal Information
                                 Security Management Act of
                                 2002 for Fiscal Year 2013 (FSA
                                 is also designated as an action
                                 official)

ODS             Audit            The Department’s Monitoring           1/3/14            -                   -                 2
                A19M0003         of Race to the Top Program
                                 Recipient Performance

ODS             Audit            The Department’s                      1/27/14           -                   -                 3
                A19M0005         Implementation of the
                                 Government Performance and
                                 Results Act Modernization Act

OESE            Management       Fraud in Title I-Funded               10/31/13          -                   -                 9
                Information      Tutoring Programs
                Report
                X42N0001




1
    Management Information Report X09N0003 contained 11 suggestions.


                                                                                     Office of Inspector General Semiannual Report   43
                                                                              Questioned
                Report Type                                        Date     Costs (Includes   Unsupported   Number of
     Office                                Report Title
                and Number                                        Issued     Unsupported         Costs        Recs
                                                                                Costs)

OESE            Attestation      Office of Inspector General’s    2/25/14          -               -            -
                Report           Independent Report on the
                B19O0003a        U.S. Department of
                                 Education’s Performance
                                 Summary Report for Fiscal
                                 Year 2013, dated February 25,
                                 2014

OESE            Audit            The U.S. Department of           3/31/14          -               -            9
                A07M0001         Education’s and Five State
                                 Educational Agencies’ Systems
                                 of Internal Control Over
                                 Statewide Test Results (Report
                                 is addressed to the Deputy
                                 Secretary)

OPE             Audit            Title IV of the Higher           2/21/14          -               -           11
                A07L0001         Education Act Programs:
                                 Additional Safeguards Are
                                 Needed to Help Mitigate the
                                 Risks That Are Unique to the
                                 Distance Education
                                 Environment (Report is
                                 addressed to the Acting Under
                                 Secretary and
                                 recommendations are directed
                                 to both OPE and FSA)

OPEPD           Attestation      Office of Inspector General’s    1/31/14          -               -            -
                Report           Independent Report on the
                B19O0003         U.S. Department of
                                 Education’s Detailed
                                 Accounting of Fiscal Year 2013
                                 Drug Control Funds, dated
                                 January 29, 2014

Total                                                                             $0              $0           89




44    Office of Inspector General Semiannual Report
                  Table 3. Audit, Inspection, and Evaluation Reports With
                             Questioned or Unsupported Costs

Section 5(a)(8) of the IG Act, as amended, requires for each reporting period a statistical table showing the total
number of audit and inspection reports, the total dollar value of questioned and unsupported costs, and
responding management decision.

None of the products reported in this table were performed by the Defense Contract Audit Agency.


                                                                        Questioned Costs
                    Requirement                        Number              (Includes                Unsupported Costs
                                                                       Unsupported Costs)

A. For which no management decision has been made
   before the commencement of the reporting period           15               $206,201,829                $139,777,294


B. Which were issued during the reporting period              0                           $0                          $0

       Subtotals (A + B)                                     15               $206,201,829                $139,777,294

C. For which a management decision was made during
   the reporting period                                       2               $139,007,200                $121,091,819

       (i) Dollar value of disallowed costs                                   $117,805,176                $110,210,114
       (ii) Dollar value of costs not disallowed                               $21,202,024                 $10,881,705

D. For which no management decision was made by
                                                             13                 $67,194,629                $18,685,475
   the end of the reporting period




                                                                          Office of Inspector General Semiannual Report    45
                      Table 4. Audit, Inspection, and Evaluation Reports With
                             Recommendations for Better Use of Funds

Section 5(a)(9) of the IG Act, as amended, requires for each reporting period a statistical table showing the total
number of audit, inspection, and evaluation reports and the total dollar value of recommendations that funds be
put to better use by management.

None of the products reported in this table were performed by the Defense Contract Audit Agency. The OIG did
not issue any inspection or evaluation reports identifying better use of funds during this reporting period.


                                Requirement                            Number                 Dollar Value

 A. For which no management decision has been made before the
                                                                                1                      $13,00,000
    commencement of the reporting period

 B.    Which were issued during the reporting period                            0                              $0

         Subtotals (A + B)                                                      1                      $13,00,000

 C. For which a management decision was made during the reporting
    period
       (i) Dollar value of recommendations that were agreed to by
                                                                                0                             $0
       management
       (ii) Dollar value of recommendations that were not agreed to
                                                                                0                             $0
       by management

 D. For which no management decision was made by the end of the
                                                                                1                     $13,000,000
    reporting period




46    Office of Inspector General Semiannual Report
           Table 5-A. Unresolved Audit, Inspection, and Evaluation Reports
                         Issued Prior to September 30, 2013

Section 5(a)(10) of the IG Act, as amended, requires a listing of each report issued before the commencement of
the reporting period for which no management decision had been made by the end of the reporting period.
Summaries of the audit and inspection reports issued during the previous SAR period follow in Table 5-B.

Reports that are new since the last reporting period are labeled “New” after the report number. All other reports
were reported in a previous SAR.


                                                                                                Total
          Report Type                                                            Date                           Number of
 Office                    Report Title (Prior SAR Number and Page)                           Monetary
          and Number                                                            Issued                            Recs
                                                                                              Findings

FSA       Audit         Review of Student Enrollment and Professional          9/23/04        $2,458,347             7
          A04E0001      Judgment Actions at Tennessee Technology
                        Center at Morristown (SAR 49, page 14)

                        Current Status: FFSA informed us that it is
                        currently working to resolve this audit.

FSA       Audit         Audit of Saint Louis University’s Use of               2/10/05        $1,458,584             6
          A06D0018      Professional Judgment from July 2000 through
                        June 2002 (SAR 50, page 21)

                        Current Status: FSA informed us that it is
                        currently working to resolve this audit.

FSA       Audit         Capella University’s Compliance with Selected          3/7/08          $589,892              9
          A05G0017      Provisions of the HEA and Corresponding
                        Regulations (SAR 56, page 25)

                        Current Status: FSA informed us that it is
                        currently working to resolve this audit.

FSA       Audit         Ashford University’s Administration of the Title IV    1/21/11         $29,036               13
          A05I0014      HEA Programs (SAR 62, page 24)

                        Current Status: FSA informed us that it is
                        currently working to resolve this audit.

FSA       Audit         Saint Mary-of-the-Woods College’s Administration       3/29/12       $42,362,291             19
          A05K0012      of the Title IV Programs (SAR 64, page 36)

                        Current Status: FSA informed us that it is
                        currently working to resolve this audit.

FSA       Audit         Metropolitan Community College’s Administration        5/15/12         $232,918              22
          A07K0003      of Title IV Programs (SAR 65, page 40)

                        Current Status: FSA informed us that it is
                        currently working to resolve this audit.




                                                                              Office of Inspector General Semiannual Report   47
                                                                                                                Total
                Report Type                                                                     Date                       Number of
    Office                           Report Title (Prior SAR Number and Page)                                 Monetary
                and Number                                                                     Issued                        Recs
                                                                                                              Findings

    FSA         Audit             Colorado Technical University’s Administration of           9/21/12          $173,164        8
                A09K0008          Title IV Programs (SAR 65, page 40)

                                  Current Status: FSA informed us that it is
                                  currently working to resolve this audit.

    FSA         Audit             Arkansas State University’s Administration of               9/26/13                 -        3
                A06M0013          Selected Aspects of the Title IV Programs
                                  (SAR 67, page 43)

                                  Current Status: FSA informed us that it is
                                  currently working on a final audit determination.

    OCFO        Audit             California Department of Education Advances of               3/9/09          $728,651       10
                A09H0020          Federal Funding to LEAs (SAR 58, page 31)

                                  Current Status: OCFO/PAG informed us that it is
                                  currently working to resolve this audit.

    ODS         Audit             Oklahoma: Use of Funds and Data Quality for                 2/18/11        $16,150,803      10
                A06K0002          Selected Recovery Act Programs (OESE and OSERS
                                  are also designated as action officials)
                                  (SAR 62, page 25)

                                  Current Status: OSERS/OSEP informed us that it
                                  is revising the draft PDL. OCFO/PAG PDL was
                                  issued on 9/21/2012. OESE PDL was issued on
                                  9/25/2012. ODS/ISU PDL was issued on
                                  1/8/2013.

    OESE        Audit             Maryland: Use of Funds and Data Quality for                  1/3/13          $736,582        8
                A03K0009          Selected American Recovery and Reinvestment
                                  Act Programs (ODS, OSERS, and OCFO are also
                                  designated as action officials) (SAR 66, page 40)

                                  Current Status: OCFO/ICG issued a PDL on
                                  7/31/2013. OESE and OSERS/OSEP issued a joint
                                  PDL on 3/31/2014; however, other requirements
                                  must be met before audit is resolved in the
                                  Department’s Audit Accountability and Resolution
                                  Tracking System.

    OESE        Audit             Puerto Rico: Final Recovery Act Expenditures                2/20/13          $14,3032        8
                A04M0014          Supplemental Report (OSERS is also designated as
                                  an action official) (SAR 66, page 40)

                                  Current Status: OESE and OSERS informed us
                                  that they are currently working to resolve this
                                  audit.

    OESE        Audit             U.S. Department of Education’s and Selected                 6/21/13                 -        7
                A04L0004          States’ Oversight of the 21st Century Community
                                  Learning Centers Program (SAR 67, page 43)

                                  Current Status: OESE informed us that it is
                                  currently working to resolve this audit.




2
    Audit report A04M00014 figure includes $7,303 of questioned costs and $7,000 of cost recovery during the audit.

48     Office of Inspector General Semiannual Report
                                                                                               Total
         Report Type                                                          Date                             Number of
Office                    Report Title (Prior SAR Number and Page)                           Monetary
         and Number                                                          Issued                              Recs
                                                                                             Findings

OII      Audit         The Office of Innovation and Improvement’s           9/25/12              -                  7
         A02L0002      Oversight and Monitoring of the Charter Schools
                       Program’s Planning and Implementation Grants
                       (SAR 65, page 40)

                       Current Status: OII informed us that it is
                       currently working to resolve this audit.

OPEPD    Audit         Georgia Department of Education’s Controls Over       4/7/10              -                  9
         A04J0003      Performance Data Entered in EDFacts (SAR 61,
                       page 34)

                       Current Status: Because NCES/IES now houses
                       EDFacts, OPEPD has requested to have this audit
                       reassigned to NCES/IES.


OSERS    Audit         Systems of Internal Controls over Selected           12/16/10        $2,051,000             16
         A04K0001      Recovery Act Funds in Puerto Rico (OCFO, OESE,
                       and OSERS are also designated as action officials)
                       (SAR 62, page 25)

                       Current Status: OSERS informed us that it is
                       revising its draft PDL.

OSERS    Audit         Louisiana: Use of Funds and Data Quality for         4/11/11          $209,058               5
         A06K0003      Selected Recovery Act Programs (OESE and ODS
                       are also designated as action officials)
                       (SAR 63, page 37)

                       Current Status: OSERS informed us that it is
                       finalizing a draft PDL.

OSERS    Audit         Local Educational Agency Maintenance of Effort       7/25/13              -                 12
         A09L0011      Flexibility Due to Recovery Act IDEA, Part B Funds
                       (SAR 67, page 44)

                       Current Status: OSERS informed us that it is
                       currently working to resolve this audit.

Total                                                                                      $67,194,629             179




                                                                            Office of Inspector General Semiannual Report   49
Table 5-B. Summaries of Audit, Inspection, and Evaluation Reports Issued During
  the Previous Reporting Where Management Decision Has Not Yet Been Made

Section 5(a)10)of the IG Act, as amended, requires a summary of each audit, inspection, or evaluation report
issued before the commencement of the reporting period for which no management decision has been made by
the end of the reporting period. These are the narratives for new entries. Details on previously issued reports
can be found in Table 5-A of this Semiannual Report.


                   Report Title,
     Office      Number, and Date                                       Summary and Current Status
                      Issued

FSA            Arkansas State             We determined that Arkansas State University’s (ASU) default prevention and
               University’s               management to address its rising cohort default rate was reasonable, selected
               Administration of          information it reported to the Integrated Postsecondary Data System was accurate, and
               Selected Aspects of        that it properly measured quantitative satisfactory academic progress for students. We
               the Title IV Programs      did, however, find that ASU did not provide employment and continuing education data
               (SAR 67, page 43)          of students graduating from 6 of its 10 colleges in the 2008–2009 academic year and did
                                          not provide employment and continuing education data of students graduating from 8 of
               Audit A06M0013             its 10 colleges in the 2009–2010 academic year. In addition, ASU provided unsupported
                                          job placement rates for four colleges for the 2008–2009 academic year and for two
               9/26/13                    colleges for the 2009–2010 academic year on its Web site. Although ASU reported its
                                          graduation data accurately through Integrated Postsecondary Data System, we found
                                          that ASU reported inaccurate graduation data on its Web site for undergraduate students
                                          who received degrees in academic year 2008–2009 for 4 of its 10 colleges. We
                                          recommended that FSA require ASU to establish policy and procedures to make available
                                          employment and continuing education data to enrolled or prospective students for all
                                          colleges, collect, maintain, and verify the accuracy of documentation to support
                                          required disclosures of employment and continuing education data, job placement rates,
                                          and graduation data reported on its Web site or by other means of dissemination, and
                                          ensure that any required job placement rate disclosures include the required disclosures
                                          of the source, time frames, and methodology associated with job placement rate.

                                          Current Status: FSA informed us that it is currently working on a final audit
                                          determination.

OESE           U.S. Department of         We found that although the Department tracked program performance measures at the
               Education’s and            four SEAs reviewed, neither the Department nor three of the SEAs validated the
               Selected States’           performance data that the subgrantees submitted. As a result, the Department was
               Oversight of the 21st      unable to ensure that grantees met program objectives. We also found that although
               Century Community          the Department monitored the SEAs’ processes to award and monitor subgrants and
               Learning Centers           reported some deficiencies it identified, it did not identify the internal control
               Program (SAR 67,           weaknesses that we found at the selected SEAs. We made a number of
               page 43)                   recommendations, including that the Department ensure that SEAs implement written
                                          policies, procedures, and monitoring instruments to sufficiently test 21st CCLC
               Audit A04L0004             performance data and provide reasonable assurance of the accuracy, reliability, and
                                          completeness of data reported to the Department. We also recommended that the
               6/21/13                    Department provide sufficient monitoring and oversight of SEAs’ processes to award and
                                          monitor 21st CCLC grants to subgrantees.

                                          Current Status: OESE informed us that it is working to resolve this audit.




50     Office of Inspector General Semiannual Report
            Report Title,
Office    Number, and Date                                     Summary and Current Status
               Issued

OSERS    Local Educational       We found that the 17 LEAs and 6 SEAs reviewed did not always comply with applicable
         Agency Maintenance      laws and regulations associated with exercising maintenance of effort (MOE) flexibility or
         of Effort Flexibility   properly use and account for freed-up funds resulting from exercising MOE flexibility.
         Due to Recovery Act     The following summarizes the findings of our audit:
         IDEA, Part B Funds
         (SAR 67, page 43)
                                         Eligibility to Exercise MOE Flexibility. Two of the six SEAs reviewed (Maine
         Audit A09L0011                   and Ohio) did not have an adequate system for determining LEA eligibility for
                                          MOE flexibility. Further, based on the information that Maine provided during
         7/25/13                          the audit, we concluded that the State exercised MOE flexibility at the SEA
                                          level even though it did not meet the eligibility requirements. Another SEA
                                          (California) miscalculated the overall determinations for 25 LEAs and
                                          incorrectly determined they were eligible for MOE flexibility. Another SEA
                                          (Louisiana) provided LEAs with incomplete information regarding the amount
                                          of MOE reductions they could take. None of the 14 eligible LEAs in Louisiana
                                          exercised MOE flexibility, but they may have chosen to if the SEA had
                                          provided complete information.

                                         Use of and Accounting for Freed-Up Funds. Some LEAs in our review that
                                          exercised MOE flexibility did not account for the freed-up funds in accordance
                                          with applicable laws, regulations, and guidance. The two LEAs we reviewed
                                          in both Illinois and Ohio did not track how they used freed-up funds. As a
                                          result, we could not determine whether the LEAs used the funds
                                          appropriately. Additionally, one LEA in California exercised MOE flexibility by
                                          more than the maximum allowed, and at least one LEA in California, Illinois,
                                          Ohio, and Texas used IDEA funds for coordinated early intervening services in
                                          amounts that exceeded the maximum available. Furthermore, SEAs in
                                          California, Illinois, and Ohio did not properly monitor LEAs’ use of freed-up
                                          funds.

                                         Impacts to Special Education Services Resulting from Spending Reductions
                                          Under the Flexibility Provision. SEA program and fiscal officials from four
                                          SEAs (California, Illinois, Ohio, and Texas) whose LEAs exercised MOE
                                          flexibility did not have information about LEAs in their States experiencing
                                          adverse impacts to special education. The supplemental Recovery Act IDEA
                                          funds increased the amount of funding available and may have masked
                                          impacts in the short term. As a result, we did not identify evidence of actual
                                          or potential adverse impacts.

                                 Current Status: OSERS informed us that it is currently working to resolve this audit.




                                                                              Office of Inspector General Semiannual Report   51
         Table 6. Statistical Profile for October 1, 2013, through March 31, 2014

                                                                                                                October 1, 2013–
                                                                  Audits, Inspections, Other Products
                                                                                                                 March 31, 2014

                                                     Audit Reports Issued                                                    8

                                                     Inspection Reports Issued                                               1

                                                     Questioned Costs (Including Unsupported Costs)                         $0

                                                     Recommendations for Better Use of Funds                                $0

                                                     Other Products Issued                                                   4

                                                     Reports Resolved By Program Managers                                   17

                                                     Questioned Costs (Including Unsupported Costs) Sustained     $117,805,176

                                                     Unsupported Costs Sustained                                  $110,210,114

                                                     Additional Disallowances Identified by Program Managers            $4,006

                                                     Management Commitment to the Better Use of Funds                       $0

                                                     Investigative Cases Opened                                             34

                                                     Investigative Cases Closed                                             73

                                                     Cases Active at the End of the Reporting Period                       316

                                                     Prosecutorial Decisions Accepted                                       56

                                                     Prosecutorial Decisions Declined                                       78

                                                     Indictments/Informations                                               32

                                                     Convictions/Pleas                                                      59

                                                     Fines Ordered                                                     $41,740

                                                     Restitution Payments Ordered                                  $13,495,671

                                                     Civil Settlements/Judgments (number)                                    5

                                                     Civil Settlements/Judgments (amount)                             $874,999

                                                     Recoveries                                                       $499,127

                                                     Forfeitures/Seizures                                           $2,965,371

                                                     Estimated Savings                                              $1,000,000

                                                     Suspensions Referred to Department                                     19

                                                     Debarments Referred to Department                                      21

                                                     Debarments Imposed by OIG                                               1




52   Office of Inspector General Semiannual Report
Acronyms and
Abbreviations
        Acronyms and Abbreviations Used in This Report
                                  CIGIE                  Council of Inspectors General on Integrity and Efficiency
                                  Department             U.S. Department of Education
                                  DMCS2                  Debt Management Collection System 2
                                  FISMA                  Federal Information Security Management Act of 2002
                                  FSA                    Federal Student Aid
                                  FY                     Fiscal Year
                                  GPRA                   Government Performance and Results Act
                                  IDEA                   Individuals with Disabilities Education Act, Part B
                                  LEA                    Local Educational Agency
                                  OIG                    Office of Inspector General
                                  OPE                    Office of Postsecondary Education
                                  Recovery Act           American Recovery and Reinvestment Act of 2009
                                  Recovery Board         Recovery Accountability and Transparency Board
                                  RTT                    Race to the Top Program
                                  SEA                    State Educational Agency
                                  SES                    Supplemental Educational Services
                                  Title I                Elementary and Secondary Education Act, Title I
                                  Title IV               Higher Education Act of 1965, Title IV



                                   For acronyms and abbreviations used in the required tables, see page 39.




54   Office of Inspector General Semiannual Report
FY 2014 Management Challenges
The Reports Consolidation Act of 2000 requires the OIG to identify and summarize
the most significant management challenges facing the Department each year.
Below are the management challenges OIG identified for FY 2014.

       1. Improper Payments, meeting requirements and intensifying efforts to
          prevent, identify, and recapture improper payments.

       2. Information Technology Security, including management, operational,
          and technical security controls to adequately protect the
          confidentiality, integrity, and availability of its systems and data.

       3. Oversight and Monitoring, including Federal student aid program
          participants, distance education, grantees, and contractors.

       4. Data Quality and Reporting, specifically program data reporting
          requirements to ensure that accurate, reliable, and complete data are
          reported.

       5. Information Technology System Development and Implementation,
          specifically processes related to oversight and monitoring of
          information technology system development and implementation.

For a copy of our FY 2014 Management Challenges report, visit our Web site at
www.ed.gov/oig.
Anyone knowing of fraud, waste, or abuse involving U.S. Department
of Education funds or programs should contact the Office of
Inspector General Hotline:

http://www2.ed.gov/about/offices/list/oig/hotline.html

We encourage you to use the automated complaint form on our Web
site; however, you may call or write the Office of Inspector General.

Inspector General Hotline                Call Toll-Free:
U.S. Department of Education             Inspector General Hotline
Office of Inspector General              1-800-MISUSED
400 Maryland Ave., S.W.                  (1-800-647-8733)
Washington, D.C. 20202


Your report may be made anonymously.

The Department of Education’s mission is to promote student
achievement and preparation for global competitiveness by
fostering educational excellence and ensuring equal access.

www.ed.gov
